May 21, 2020
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, DC 20543
Re:

Joshua Baker, Director, South Carolina Department of Health and Human Services v.
Planned Parenthood South Atlantic, et al., S. Ct. No. 19-1186

Dear Mr. Harris:
I am counsel of record for respondents in the above-captioned case. The petition for a writ of
certiorari in this case was filed on March 27, 2020, and was placed on the Court’s docket on March 30,
2020. Our response to the petition is due, on one extension, on May 29, 2020.
We respectfully request, under Rule 30.4 of the Rules of this Court, an extension of time to and
including June 29, 2020, within which to file our response.
This extension is requested because of the press of other business and the disruption caused by
the outbreak of COVID-19. This extension also is requested to permit respondents adequate time to
consider and, if necessary, respond to the amicus briefs filed in this case. Petitioner does not object to
this extension.
Thank you for your consideration of this request.

Sincerely,

s/ Alice Clapman
Alice Clapman

cc:

Counsel for Petitioner (see attached service list)

19-1186
Baker, Joshua
JOHN J. BURSCH
BURSCH LAW PLLC
9339 CHERRY VALLEY SE, #78
CALEDONIA, MI 49316
(616) 450-4235

